Report No. DODIG-2012-089               May 17, 2012




      Better Contract Oversight Could Have Prevented
           Deficiencies in the Detention Facility in
                    Parwan, Afghanistan
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      4800 Mark Center Drive (Room 13F25-04)
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ANDF                  Afghanistan National Defense Facility
DFIP                  Detention Facility in Parwan
FAR                   Federal Acquisition Regulation
JV                    Ihsan Qudrat and Prime Projects Imram Butt International LTD, Joint
                         Venture
PPI                   Prime Projects International General Trading Company, LLC
TAN                   Afghanistan Engineer District-North
USACE                 U.S. Army Corps of Engineers
USFOR-A               U.S. Forces-Afghanistan
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                    May 17, 2012

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Better Contract Oversight Could Have Prevented Deficiencies in the Detention
         Facility in Parwan, Afghanistan (Report No. DODIG-2012-089)

We are providing this report for review and comment. We initiated this audit in response to a
concern from the Commander, Task Force Protector. In May 2010, the Commander identified
deficiencies that existed within the Detention Facility in Parwan, Afghanistan, including major
infrastructure systems. U.S. Army Corps of Engineers officials accepted the detention facility,
valued at about $60.2 million, from the contractor in September 2009, although major
deficiencies existed. U.S. Army Corps of Engineers officials did not provide adequate oversight
over the construction of the detention facility and did not comply with their internal policies
regarding the contract’s warranty. The contractor used materials that did not conform to the
contract specifications, which caused four major infrastructure systems to have recurring
deficiencies requiring replacement or repair. These deficiencies increased safety and security
risks to DoD personnel and detainees.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments
received from the Chief, Transatlantic Division Regional Integration Team, Directorate of
Military Programs were partially responsive. We request the Commander, U.S. Army Corps of
Engineers Afghanistan Engineer District-North, provide additional comments on
Recommendations 1, 2 and 3 by June 22, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audjsao@dodig.mil. Portable document format (.pdf) copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Michael J. Roark at
(703) 604-9187 (DSN 664-9187).




                                                  Amy J. Frontz
                                                  Principal Assistant Inspector General
                                                   for Auditing
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
  LOGISTICS
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
  OFFICER
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. FORCES-AFGHANISTAN
COMMANDER, U.S. ARMY CENTRAL
COMMANDING GENERAL, COMBINED SECURITY TRANSITION COMMAND-
  AFGHANISTAN
COMMANDING GENERAL, U.S. ARMY CORPS OF ENGINEERS
COMMANDER, TASK FORCE PROTECTOR
COMMANDER, COMBINED JOINT INTERAGENCY TASK FORCE-435 INSPECTOR
  GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
Report No. DODIG-2012-089 (Project No. D2010-D000JO-0229.000)               May 17, 2012


               Results in Brief: Better Contract Oversight
               Could Have Prevented Deficiencies in the
               Detention Facility in Parwan, Afghanistan
                                                         The Commander, Combined Joint Interagency
What We Did                                              Task Force-435 stated the sewage system and
We initiated this audit in response to a concern         the fire suppression system have not been a
from the Commander, Task Force Protector. In             problem since the 43rd Military Police Brigade
May 2010, the Commander identified                       took command in April 2011. However, he also
deficiencies that existed within the Detention           stated that the access doors are in disrepair and
Facility in Parwan, Afghanistan, including               will be replaced as soon as new, prison grade
major infrastructure systems (for example,               doors arrive from the United States; and that a
sewage and fire suppression systems). Our                change order is pending to have the Operation
objective was to determine whether U.S. Army             and Maintenance contractor to upgrade the
Corps of Engineers Afghanistan Engineer                  electrical system so that it will be to U.S.
District-North officials properly monitored the          electrical code standards.
contractor’s performance during construction of
the detention facilities and took recourse against       What We Recommend
contractors because of potential latent defects,         Among other recommendations, we recommend
negligence, or fraud.                                    that the Commander, U.S. Army Corps of
                                                         Engineers Afghanistan Engineer District-North,
What We Found                                            identify and perform a review of personnel
The U.S. Army Corps of Engineers Afghanistan             responsible for the inadequate oversight of the
Engineer District-North officials accepted the           construction and initiate administrative action if
detention facility from the contractor in                deemed appropriate; direct the contracting
September 2009, although major deficiencies              officer to maintain copies of all acceptance-
existed. Specifically, the contractor used               testing results in the official contract file and
materials in major infrastructure systems that           train personnel on the need to adhere to formal
did not conform to the contract specifications.          warranty procedures.
This occurred because U.S. Army Corps of
Engineers Afghanistan Engineer District-North            Management Comments and
officials did not provide adequate oversight over        Our Response
the construction of the detention facility and did       The comments received from the Chief,
not comply with their internal policies regarding        Transatlantic Division Regional Integration
oversight of the contractor’s warranty. As a             Team, Directorate of Military Programs were
result, major infrastructure systems had                 partially responsive. We request that the
recurring deficiencies requiring replacement or          Commander, U.S. Army Corps of Engineers
repair. These deficiencies increased safety and          Afghanistan Engineer District-North, provide
security risks to DoD personnel and detainees.           additional comments by June 22, 2012. Please
                                                         see the recommendations table on the back of
                                                         this page.



                                                     i
Report No. DODIG-2012-089 (Project No. D2010-D000JO-0229.000)   May 17, 2012

Recommendations Table


Management                    Recommendations         No Additional
                              Requiring Comment       Comments Required
Commander, U.S. Army Corps    1., 2., 3.              4 a –d.
of Engineers Afghanistan
Engineer District-North


Please provide comments by June 22, 2012.




                                       ii
Table of Contents

Introduction                                                           1
      Objective                                                        1
      Background                                                       1
      Review of Internal Controls                                      3

Finding. Inadequate Oversight Led to Recurring Deficiencies in DFIP
Infrastructure Systems                                                 4
       DFIP Acceptance                                                 4
       Inadequate Oversight of Portions of the DFIP Construction       5
       Warranty Requirements Were Not Followed                        13
       Increased Risks and Cost                                       15
       DFIP Status Update                                             15
       Conclusion                                                     15
       Management Comments on the Finding and Our Response            16
       Recommendations, Management Comments and Our Response          17

Appendices
     A. Scope and Methodology                                         20
            Use of Computer Processed Data                            20
            Use of Technical Assistance                               20
            Prior Coverage                                            20
     B. DFIP Warranty Punch List                                      22
     C. Health and Safety Risks Memorandum Issued to USACE TAN and
           Management Response                                        28

Management Comments
      Department of the Army                                          36
Introduction
Objective
Our overall objective was to determine whether the U.S. Army Corps of Engineers
(USACE) Afghanistan Engineer District-North (TAN) and
U.S. Forces-Afghanistan (USFOR-A) officials procured construction services and
administered the construction contract for the Detention Facility in Parwan, Afghanistan,
(DFIP) and the Afghanistan National Detention Facility (ANDF) in accordance with the
Federal Acquisition Regulation (FAR) and other applicable laws and regulations.
Specifically, we determined whether USACE TAN officials properly monitored the
contractor’s performance during DFIP construction and took recourse against the
contractor because of potential latent defects, negligence, or fraud. Since the DFIP was
under warranty at the time of our review, we did not address pre-award and award
procedures. We did not determine whether USACE TAN officials properly monitored
contractor performance for the construction of the ANDF because construction was not
complete at the time of our site visits. See Appendix A for scope, methodology, and
prior coverage related to the audit objectives.

Background
We initiated this audit in response to a concern from the Commander, Task Force
Protector. In May 2010, the Commander identified deficiencies that existed within the
DFIP, including major infrastructure systems (for example, sewage and fire suppression
systems).

Detention Facility in Parwan
The DFIP is located at Bagram Airfield, Afghanistan. The DFIP was built to replace the
Bagram Theatre Internment Facility, which was housed in a temporary facility that had
rapidly deteriorated and could not be expanded or renovated. In April 2008, the Deputy
Secretary of Defense, authorized the immediate construction of the DFIP, stating that the
new facility would increase the safety of the guards and detainees, improve structural
conditions, and provide infrastructure supporting enhanced programs for the detainees. The
DFIP is on a 40-acre campus and consists of 14 primary buildings, including the detainee
housing units, medical facilities, a visitation center, a water treatment plant, and vocational
buildings where detainees can learn carpentry and culinary skills. The facility also has
outdoor recreation areas, guard towers, and containment fences.

DFIP command and control is the responsibility of Combined Joint Interagency Task
Force-435 (Joint Task Force-435) and its subordinate commands. Joint Task Force-435
is responsible for the day-to-day DFIP operations and focuses its efforts on the care and
custody of detainees, implementation of the detainee review procedures, and
establishment of vocational and educational programs designed to facilitate the peaceful
reintegration of detainees into society. Joint Task Force-435’s subordinate commands are
responsible for training the Afghanistan National Army guard force in military police


                                             1
operations and the care and custody of the DFIP detainees. The 16th Military Police
Brigade (TF Protector) was the brigade in command of the DFIP in 2009-2010. The
46th Military Police Brigade (TF Peacekeeper) replaced the 16th Military Police Brigade.
In April 2011, the 43rd Military Police Brigade (TF Protector) assumed command.

Construction Contract
USACE TAN officials issued a request for proposal for the DFIP design and construction
in June 2008. The scope of work included all electrical, structural, water, wastewater,
sewer, communications, metalwork, and other work required the DFIP to be a fully
functional compound. On July 31, 2008, USACE TAN officials awarded contract
W912ER-08-C-0040, valued at about $50 million, to Prime Projects International
General Trading Company, LLC (PPI) for the DFIP design and construction.
USACE TAN officials issued the notice to proceed on August 14, 2008, giving the
contractor 400 days to complete construction of the DFIP. USACE TAN officials issued
20 modifications to the contract, with the last one issued in September 2009. The
modifications added approximately $10.2 million to the contract, for a total value of
about $60.2 million. USACE TAN personnel made achieving the 400-day goal for
construction a top priority and took pride that the DFIP was delivered on schedule.

Afghan National Defense Facility in Parwan
The ANDF is located adjacent to the DFIP at Bagram Airfield, Afghanistan. The ANDF
was an expansion of the DFIP to provide space for an additional 950 detainees. The
ANDF was justified based on the DFIP operating at capacity. On June 15, 2010, USACE
TAN officials issued a sole source firm fixed price, design-build contract
(contract number W5J9JE-10-C-0047) to Ihsan Qudrat & Prime Projects Imram Butt
International LTD, Joint Venture (JV), valued at about $26.5 million. USACE TAN
officials selected JV as the contractor and did not conduct market research because JV
was an Afghan source and successfully built the DFIP. Because JV built the DFIP, it had
the unique knowledge about the design and integration of the ANDF expansion project
with the existing complex. The scope of work included site preparation, utility
installations, construction of one special housing unit and two detention-housing units,
and an exterior security infrastructure.

U.S. National Electrical Code
The U.S. National Electric Code, 2008 (NEC) Article 90.1(A) states that the code
provides practical safeguarding from hazards arising from the use of electricity. The
NEC states that hazards often occur because of overloading of wiring systems by
methods or usage not in compliance with the code and because initial wiring did not
provide for the increases in the use of electricity. The NEC addresses the fundamental
principles of protection for safety contained in section 131 of International
Electrotechnical Commission Standard 60364-1, Electrical Installation of Buildings.
According to the NEC, the International Electrotechnical Commission Standard 60364-1




                                            2
contains fundamental principles of protection for safety that encompass protection against
electric shock, thermal effects, overcurrent, and overvoltage. The requirements in the
NEC address all of the potential hazards.

Warranty Requirements
USACE TAN officials included warranty requirements in the contract. The contract
contained FAR clause 52.246-21, “Warranty of Construction - Alternate I (April 1984).”
By accepting the contract, the contractor warrants that work performed under the contract
is free from any defect in equipment, material, or design furnished or workmanship
performed. The warranty period is 1 year from the date of final acceptance of the work
or 1 year from the date that the Government takes possession of any part of the work
                                                  before final acceptance. The warranty
     The warranty period is 1 year from the
                                                  clause requires the contracting officer to
     date of final acceptance of the work or
                                                  notify the construction contractor, in
   1 year from the date that the Government
                                                  writing, within a reasonable time after the
    takes possession of any part of the work
                                                  discovery of any failure, defect, or
             before final acceptance.
                                                  damage. Additionally, if the construction
contractor fails to remedy any failure, defect, or damage within a reasonable time after
receipt of notice, the U.S. Government has the right to replace, repair, or otherwise
remedy the failure, defect, or damage at the contractor’s expense.

USACE Engineer Regulation (ER) 415-345-38, “Construction Transfer and Warranties,”
June 30, 2000, requires USACE to notify the contractor immediately on defects of a
critical nature that affect operations, habitability of living spaces, life/safety, or the
physical security of the property. The regulation requires warranty inspections to be
conducted approximately 4 months and 9 months after transfer. The regulation states that
a USACE construction agent, the customer, and if possible, the contractor should
participate in these inspections. To provide a smoother transfer of real property to the
facilities manager, Appendix B of the ER regulation lists the specifics of the inspection
process. These inspections are critical because they ensure that the customer understands
the implications of each step in the warranty process and outlines the continuing support
of USACE during the warranty period.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified internal control weaknesses caused
by officials not effectively documenting construction quality measures to ensure construction
products met the contract specifications. We will provide a copy of the report to the senior
officials responsible for internal controls at USACE-TAN.




                                              3
Finding. Inadequate Oversight Led to
Recurring Deficiencies in DFIP Infrastructure
Systems
USACE TAN officials accepted the DFIP from the contractor in September 2009,
although major deficiencies existed. Specifically, the contractor used materials in major
infrastructure systems that did not conform to the contract specifications. This occurred
because USACE TAN officials did not provide adequate oversight over the construction
of the detention facility and did not comply with their internal policies regarding
oversight of the contractor’s warranty. As a result, the following four major
infrastructure systems had recurring deficiencies requiring replacement or repair:

        cell doors were poorly constructed, hung with incorrect hinges, and access doors
        were missing the magnetic sensors and electronic locks;
        sewage system was inoperable because the contractor did not install grinders in
        the system to break down sewage resulting in sewage pump failure;
        electrical system was built to British standards without approval, was wired
        incorrectly, and not properly grounded; and
        fire suppression system was built with pipes that could not sustain the force of the
        water flow resulting in broken pipes and leaks in the system.

These deficiencies increased safety and security risks to DoD personnel and detainees.

We issued a memorandum to the Commander, USACE TAN, on November 19, 2010,
requesting the safety and security implications associated with the sewage and fire
suppression systems deficiencies be corrected on an expedited basis. The Commander
USACE TAN, responded on November 24, 2010, stating, “our ongoing aggressive
corrective actions will result in the quickest approach that we can take that make safety
and security operational sense.” Further, the deficiencies were “well known, hard
worked, and [were] being resolved.” Our memorandum and USACE TAN’s response are
included in Appendix C of this report.

DFIP Acceptance
Task Force Protector (16th Military Police Brigade) officials accepted the DFIP from
USACE TAN on September 26, 2009, subsequent to USACE TAN’s acceptance from the
contractor on the same date.1 According to FAR Subpart 46.5, acceptance is defined as:

                 acknowledgment that the supplies or services conform with
                 applicable contract quality and quantity requirements, except as


1
  When a DoD activity engages USACE to provide contracting services, USACE officials first accept the
facility from the contractor and, then, the DoD activity accepts the facility from USACE.




                                                   4
                 provided in this subpart and subject to other terms and conditions
                 of the contract. Acceptance may take place before delivery, or
                 after delivery, depending on the provisions of the contract.
                 Supplies or services shall ordinarily not be accepted before
                 completion of Government contract quality assurance actions.

USACE Engineer Regulation 415-345-38, “Construction Transfer and Warranties,”
June 30, 2000, states that USACE should only accept facilities with minor deficiencies
when deficiencies do not interfere with the facilities designed use. The DFIP design and
construction contract required that USACE conduct a “final acceptance inspection”
before acceptance. Although USACE TAN officials stated that a final acceptance
inspection occurred on September 17, 2009, they could not provide any documentation to
show that this inspection actually occurred. However, based on the DD Form 13542,
“Transfer and Acceptance of Military Real
Property,” prepared on September 26, 2009,              The facility had uncorrected
the facility had uncorrected deficiencies in         deficiencies in the sewage system,
the sewage system, electrical panels, the fire      electrical panels, the fire alarm/fire
alarm/fire sprinkler system, and the building        sprinkler system, and the building
integration system. None of these systems                    integration system.
constituted “minor deficiencies” because of
their impact on health and safety issues. The Commander, USACE TAN, should direct
officials to provide continuous oversight and perform acceptance testing until the
satisfactory completion of the sewage system, electrical panels, the fire alarm/fire
sprinkler system, and the building integration system. Additionally, the Commander,
USACE TAN, should direct the contracting officer to maintain copies of all acceptance-
testing results in the official contract file.

Inadequate Oversight of Portions of the DFIP
Construction
USACE TAN officials did not provide the necessary oversight over the construction
contractor to ensure that materials used conformed to the contract specification. This led
to recurring problems with cell doors, the sewage systems, the electrical system, and the
fire suppression system. To ensure that future detention facilities receive the proper
oversight, USACE TAN officials should receive training on the need to review detention
facility specific infrastructures during the request for proposal process; verify that all
statement of work requirements and technical specification documents are compliant with
applicable American National Standards Institute standards and the needs of the ultimate
user; and verify that the contractor complies with all technical specifications in the
contract so that all infrastructure systems are operable before acceptance of the facility.




2
 A DD Form 1354 is prepared when military real property is transferred between the Military Departments
and other Government agencies.



                                                   5
Doors Not Properly Constructed
Cell doors were poorly constructed and hung with incorrect hinges, and access doors
were missing the magnetic sensors and electronic locks. The contract called for the cell
doors to be extra heavy duty, factory fabricated in accordance with American National
Standard Institute A250.8 and National Association of Architectural Metal
Manufacturers/Hollow Metal Manufacturers Association standards. Based on those
standards the cell doors should have had welded frames and full-mortise heavy duty
hinges complying with American National Standard Institute/Builders Hardware
Manufacturer Association 156.1, spaced appropriately with a minimum of three hinges
per door. The cells were to have a wire cage on the front and the doors equipped with all
required commercial quality tamper proof hardware complying with applicable portions
of American National Standard Institute /Builders Hardware Manufacturer Association
standards A156 through Al56.24 including closers on personnel doors of Series C02000,
Grade 1 adjustable surface mounted type in accordance with American National Standard
Institute /Builders Hardware Manufacturer Association Standards A156.4.

In a Construction Quality Presentation in July 2010, Task Force Rocky Mountain
officials stated that the construction quality
was not up to the standard suitable for a           The poorly constructed cell doors
detention facility, and that the quality of          allowed detainees to damage the
construction of greatest interest was the            doors easily by repeated kicking.
areas where the detainees spent most of
their time such as detention cells and the recreation yard. The presentation went on to
say that the poorly constructed cell doors allowed detainees to damage the doors easily by
repeated kicking. Figure 1 shows examples of the poor welding and Figure 2 shows the
damage to the cell doors caused by the detainees because of the poor construction.

                  Figure 1. Examples of Poorly Welded Cell Grates




 Source: Task Force Rocky Mountain, Construction Quality Presentation, July 17, 2010




                                            6
                         Figure 2. Examples of Cell Damage




 Source: Task Force Rocky Mountain, Construction Quality Presentation, July 17, 2010

According to the Task Force Rocky Mountain presentation, the quality of welding
required the facility engineers to do extensive rework. Figure 3 shows the rework that
DoD OIG engineers inspected in July 2010.

                           Figure 3. Re-Welded Cell Doors




                           Source: DoD OIG engineers, July 2010

The DFIP cell door hinges were not adequate to hold the weight of the cell doors and
required re-welding and replacement. The technical specifications required that each
door have full-mortise, heavy-duty hinges that complied with ANSI/BHMA A156.1. To
fulfill that standard, the door should have had 1 ½ pairs butt hinges with rectangular
leaves welded to both the door and the transom bar. According to the American National




                                            7
 Standard Institute,3 a butt hinge is defined as a hinge with rectangular leaves, usually of
the same size, and multiple bearing contacts. Figure 4 shows original hinges installed by
the DFIP contractor.

                                      Figure 4. DFIP Hinge




                            Source: DoD OIG engineers in July 2010

The hinges used did not meet the American National Standard Institute definition of a
butt hinge because they did not have rectangular leaves or multiple bearing contacts. The
original hinges also do not meet the definition of a 1 ½ pair’s butt hinge as required by
the statement of work, as the hinges do not have multiple bearings. As a result, some of
the doors had broken hinges and other door hinges showed signs of stress from carrying
the full load of the door. DFIP authorities were aware of the situation from the time the
facility was accepted. USACE TAN engineers
                                                        Some of the doors had broken
stated that the contractor acknowledged the
                                                        hinges and other door hinges
problem and indicated that it was a systemic
                                                     showed signs of stress from carrying
issue and would replace the doors before the
                                                          the full load of the door.
end of the warranty period. However, the
doors continued to remain an issue 9 months
after acceptance when DoD OIG engineers conducted their inspection in July 2010.




3
 American National Standard Institute, National Association of Architectural Metal Manufactures, Hollow
Metal Manufactures Association, 801-05, 8d, “Glossary of Terms for Hollow Metal Doors and Frames,”
April 8, 2005.



                                                   8
                    Figure 5. Subsequent Welding to the Cell Door




                         Source: DoD OIG engineers, July 2010

To properly secure the cell doors, until they could be replaced, Task Force 435 personnel
and the Logistics Civil Augmentation Program contractor re-welded the hinges. As
shown in Figure 5, those re-welded hinges have the rectangular leaves required by the
American National Standard Institute definition. Because Task Force 435 personnel did
not maintain the work orders for the re-welding, we could not determine the number of
doors re-welded by Task Force 435 and the Logistics Civil Augmentation Program
contractor or the specific costs to the Government for that work. However, the DFIP
maintenance contractor provided documentation that showed that 57 door hinges were
replaced.

Additionally, access doors were missing the magnetic sensors and electronic locks. As a
                                      result, the doors were inoperable and incapable of
   The doors were inoperable and
                                      locking either manually or electronically.
     incapable of locking either
                                      According to personnel responsible for
     manually or electronically.
                                      maintaining the DFIP, they removed the locks
from the doors because they were defective.

The lack of magnetic sensors and electronic locks also caused the building integration
system to be ineffective. The integration system was supposed to monitor the status of all
doors with electronic locks and magnetic sensors, thereby electronically monitoring the
status of all detainees entering and exiting the secured areas.

The lack of a final functional test on the building integration system was considered a
deficiency when the building was accepted. However, DoD OIG engineers noted during
their inspection in July 2010 that the integration system was still not functioning. Instead




                                             9
of ensuring that the doors had magnetic sensors and locks so that the Integration System
would work properly, a soldier was required to stand and guard the door, as a means of
securing the rooms.

Sewage System Lacked Grinders for Solid Materials
The DFIP sewage system required multiple repairs because the detainees flushed
non-organic material down the toilets, which caused the lift station sewage pumps to fail.
The contract stated that the sewage system should be constructed in accordance with
Unified Facilities Guide Specifications Section 33 32 16.13. Those specifications
required submersible sewage pumps that could grind all materials found in normal
domestic sewage, including plastics, rubber, sanitary napkins, disposable diapers, and
wooden articles. The specifications did not require sewage pumps that could grind
materials found in normal “detention” facility sewage.

The contractor built the sewage system with two lift stations designed to allow sewage to
pass from the detention facility to the two lift stations located in the DFIP secure
courtyard. The two lift stations located in the courtyard would then pump the sewage
uphill through transfer lines to a collection point located outside the detention facility.
Once at the collection point, sewage tucks collect the sewage for disposal, as shown
Figure 6.

                             Figure 6. Trucks Collect Sewage




                          Source: DoD OIG engineers, July 2010

According to DoD OIG engineers, who inspected the sewage system in July 2010, the two
lift station pumps located in the DFIP courtyard were not built with grinders and were not
operational. The lack of grinders caused the sewage to solidify because of the non-organic
materials, such as uniforms, being flushed down the toilets by the detainees. Once the
sewage hardened inside the lift station, the waste level began to rise above the sewage lines


                                              10
leading from the DFIP buildings as well as the outlet lines that should have transferred the
sewage to the collection point outside the detention facility.

DFIP authorities were aware of the situation from the acceptance date and allowed sewage
trucks inside the secure DFIP courtyard to remove the sewage to prevent the lift stations from
overflowing. To make the system work as designed, USACE TAN officials stated that
“Muffin Grinders,” or grinder pumps, needed to be installed in the sewage system so they
could ensure that any obstruction in the flow of the sewage waste does not prevent the
system from working properly. The use of these grinders should allow all waste to pass
seamlessly throughout the sewage system instead of entering the lift station pump
impellers and disabling the pump. However, this installation came with an added
expense to DoD of more than $45,000 for the purchase of the Muffin Grinders and an
undeterminable amount for cleaning the solidified waste from the bottom of the lift
station.

In April 2010, Joint Task Force 435 personnel justified purchasing the sewage material
grinders by stating that the two lift station pumps were replaced at a considerable cost,
and the system was being pumped out from the list station holding tanks. The
justification also stated that the continued operation without the grinders could result in
the having to remove, rebuild, or replace the pumps at an even greater cost.

Electrical System Not Built to U.S. National Electric Code
The DFIP electrical system was primarily built to British standards. The contract stated
that the electrical system should be built to U.S. National Electric Code standards or
equivalent standards, if approved by the contracting officer. However, there is no
evidence that the use of British standards was approved. According to an USACE TAN
official, American made washers and dryers arrived at the DFIP for the Votech laundry
room, but could not be installed because the laundry room was wired to the British
standard.

Distinct differences exist between the U.S. and British standards, especially regarding
grounding, bonding, and
wiring conventions. U.S.              Distinct differences exist between the U.S. and
standards use a four-wire           British standards, especially regarding grounding,
cable configuration to                       bonding, and wiring conventions.
distribute voltage levels of
208 and 120 volts. The British standard uses a five-wire cable configuration to distribute
voltage levels of 250 and 220 volts.




                                              11
Personnel who had experience with the British Standard installed the British Standard
electrical system during construction, and posted the explanation of the British Standard
inside the electrical panels (see figure 7 [right]).

 Figure 7. The Electrical System Panel (left) and Explanation of the System (right)




                        Source: DoD OIG engineers, July 2010

Contractors, once U.S. personnel started operating the facility, made changes to the
British Standard wiring convention so that it conforms as close as possible to the
American Standard. According to DoD OIG and USACE TAN engineers, an
experienced electrician should know the difference between the two standards before
performing maintenance. However, our engineers concluded that personnel who work
with or around the electrical equipment at the DFIP were not safeguarded from electrical
safety hazards.

A USACE TAN deficiency report dated June 25, 2010, stated that the detention facility
had the following U.S. National Electrical Code violations:

       Color coding for electrical conductors;
       Grounding on all transformers; and
       Electrical equipment clearances.

Continued failure to correct the electrical code violations increases the risk of loss of
service and the potential of the loss of life for anyone attempting repairs.

Fire Suppression System Pipes Could Not Withstand Pressure
The DFIP fire suppression system was built with piping that was not strong enough to
sustain the force of water flow resulting in leaks
in the system. A Task Force Peacekeeper                A Task Force Peacekeeper
official stated that there were three sets of pipes  official stated that there were
delivered for the fire suppression system.          three sets of pipes delivered for
USACE TAN officials stated that the reason the        the fire suppression system.



                                             12
pipes leaked was possibly because of faulty welding in the pipe connections. The initial
leaks caused a drop in water pressure, which then caused the booster pumps to increase
the pressure back to its original state and further aggravated the leaks. The three types of
piping purchased for the DFIP were:

           HDPE [High Density Polyethylene] (installed)
           Schedule 80 (never installed – failed testing prior to installation)
           Fiber Glass (installation completion scheduled for February 2011)

According to the same official, the three sets of pipes did not require additional expenses
because the pipes were covered under the contractor’s warranty. As of January 10, 2011,
                                    the fire suppression system was still inoperable.
   As of January 10, 2011, the      USACE TAN officials stated that the contractor was
   fire suppression system was      scheduled to install the third set of piping by
          still inoperable.         February 2011. As an interim fix, U.S. Government
                                    personnel at the DFIP stated that they had installed
garden hoses above some of the detainee cells to help fight a fire should one occur.
Figure 8 shows a garden hose located above the detainee cells.

                   Figure 8. Interim Fix to Fire Suppression System




                          Source: DoD OIG engineers, July 2010

However, the garden hose was not attached to a water source and would be useless in the
event of a fire. The lack of a fire suppression system not only puts the detainees at risk,
but also the soldiers who guard them.

Warranty Requirements Were Not Followed
USACE TAN officials did not comply with all requirements of the warranty clause in the
contract or the warranty requirements contained in USACE ER 415-345-38. Specifically,
USACE TAN officials did not perform a 4-month warranty inspection after the DFIP was




                                             13
accepted and allowed the 1-year warranty to expire before formally notifying the
contractor of the continued deficiencies.

Four-Month Warranty Inspection Not Conducted
USACE TAN officials did not conduct a 4-month warranty inspection in accordance with
ER 415-345-38. The regulation states that USACE will conduct the 4-month inspection
to identify defects and plan corrective actions. When USACE TAN officials did not
conduct a 4-month warranty inspection, they allowed items (such as the inoperable fire
suppression system, electrical code violations, and sewage system issues) to remain
unaddressed for an additional 5 months until the 9-month warranty inspection occurred.
When we asked USACE TAN officials why they did not complete the 4-month
inspection, they stated that once the DFIP was turned over to the customer, the project
manger assigned to the DFIP had been removed and the inspection must have been
overlooked. By failing to comply with the regulation, USACE TAN officials delayed
developing a plan for corrective actions to correct deficiencies until the 9-month warranty
inspection, conducted on June 18, 2010.

Warranty Issues Reported After Warranty Expired
USACE TAN officials allowed the 1-year warranty period to expire before notifying the
construction contractor in writing of the existing construction deficiencies. According to
FAR clause 52.246-21 (b) included in contract W912ER-08-C0040, the warranty period
expires 1-year after the date of the final acceptance of the work. USACE TAN officials
accepted the facilities from the construction contractor on September 26, 2009, which
started the 1-year warranty period. Thus, the 1-year warranty period ended on
September 25, 2010. However, it was not until October 18, 2010, (22 days after the
1-year period expired) that the USACE TAN administrative contracting officer provided
the contractor with a memorandum listing the warranty items that needed repair.

USACE TAN officials identified 119 items on the punch list provided with the
memorandum where the contractor was responsible for providing both labor and
materials and an additional 41 items where the contractor was to provide materials only
(see Appendix B for both punch lists). The items identified by USACE TAN officials
included life health and safety items,
                                              The items identified by USACE officials
such as the fire suppression system
                                           included life health and safety items such as
and fire alarm systems, needing to be
                                             the fire suppression system and fire alarm
re-commissioned. Additionally,
                                              systems needing to be re-commissioned.
USACE TAN officials listed the
sewage lift station, an inoperable heating, ventilation, and air conditioning unit (HVAC),
numerous inoperable door latches, broken door hinges, and exposed rebar in addition to
minor issues such as surface cracks, chipping paint, and missing sealant. In the
memorandum, USACE TAN officials stated that although the warranty period for the
DFIP ended on September 26, 2010, they still expected the contractor to complete the
required corrections because the items were identified before the expiration of the
warranty period. However, since written notice was not delivered to the contractor
before the end of the warranty period, the Government may not have recourse against the


                                            14
contractor. To ensure that the Government’s warranty rights are protected, the
Commander, USACE TAN, should provide training to personnel on the need to adhere to
USACE ER 415-345-38, that requires contractors comply with
FAR 52.246-21, “Warranty of Construction (March 1994) - Alternate I (April 1984).”

Increased Risks and Cost
The recurring deficiencies resulted in increased safety and security risks to DoD
personnel and detainees, and DoD incurred additional expenses to upgrade the sewage
system to the contract specifications and for sewage removal. We could not determine
the costs incurred to repair the cell doors, the cost of the sewage removal, or the cost to
repair the fire-suppression system because various parties responsible for making repairs
to the facility did not maintain appropriate documentation.

DFIP Status Update
In response to a discussion draft of this report, the Commander, Combined Joint
Interagency Task Force-435, Task Force Protector, provided a memorandum stating the
cell doors were repaired before the 43rd Military Police Brigade (Task Force Protector)
took command and they did not encounter problems with cell doors. The access doors
are still in disrepair and will be replaced as soon as new prison grade doors arrive in
theater from the United States. Additionally, he stated that grinders were installed in both
lift stations of the sewage system and the fire suppression system was repaired before the
43rd Military Police Brigade took command in April 2011. The Commander stated that
there is currently a change order pending to have the Operation and Maintenance
contractor upgrade the electrical system, so it will comply with U.S. electrical code
standards.

Conclusion
The deficiencies in the construction of the DFIP occurred because USACE TAN officials
did not provide adequate oversight over the construction of the DFIP or follow its internal
policies regarding the warranty period. The contractor ordered and used inappropriate
materials that created safety and health
risks for the population of the facility. In     In their haste to accept the facility
their haste to accept the facility within     within 400 days, USACE TAN officials
400 days, USACE TAN officials                  accepted the facility before correcting
accepted the facility before correcting               deficiencies in the major
deficiencies in the major infrastructure               infrastructure systems.
systems. USACE TAN officials
considered the deficiencies nothing outside the level that would normally be expected.
More aggressive contractor oversight could have prevented some of the deficiencies
discussed in this report. The Commander, USACE TAN, should identify the personnel
responsible for the inadequate oversight of the construction of the cell doors, sewage
system, electrical system, and the fire suppression system under contract
W912ER-08-C-0040, perform a review of their actions, and initiate appropriate
administrative action.


                                            15
Management Comments on the Finding and Our
Response
The Chief, Transatlantic Division Regional Integration Team, Directorate of Military
Programs (the Chief), responded for the Commander, U.S. Army Corps of Engineers
Afghanistan Engineer District-North and provided additional comments regarding cell
doors and personnel doors, the electrical system, the fire suppression system, and the
warranty period. Specifically, regarding the doors, the Chief stated that the building was
turned over with magnetic sensors and electronic locks in place. He also stated that
personnel doors were required to be ANSI A250.8 rather than the cell doors and
personnel doors were installed per the Statement of Work with all hardware being of
commercial grade. The Chief also stated that detainee or cell doors were fabricated on
site.

Regarding the electrical system, the Chief stated that USACE previously advised that the
electrical system was built to U.S. standards with some British equipment. Further, he
commented that the report states the system is built “primarily to British standards”
without approval. The Chief also stated that even if the system were built to British
standards, this would still be in accordance with USFOR-A policy and USACE
Transatlantic Division guidance.

Concerning the fire suppression system, the Chief stated that the contractor fixed the
pipes on May 1, 2011, with fiberglass reinforced pipes, under warranty and at no cost to
the Government. Further, the system was completed and accepted on May 3, 2011. He
also commented that the garden hoses and hose bibs were installed in the cell areas for
cleaning purposes.

Regarding the warranty period, the Chief stated that the warranty inspection was
conducted in September 2010 and a list of noted deficiencies was compiled. He also
stated that upon final compilation of the deficiency list, the letter was issued, and the
timing of the letter notified the contractor in writing within a reasonable period in
accordance with the warranty clause.

Our Response
To obtain information in this report, we coordinated visual inspections of the DFIP with
DoD OIG engineers, USACE engineers, and military personnel as well as interviewed
appropriate personnel and reviewed applicable documents. For specific scope and
methodology, see Appendix A. In the report, we discuss both cell doors and access
doors. As discussed in the report, Task Force Rocky Mountain personnel in their
Construction Quality Presentation in July 2010, stated that the construction quality was
not suitable for a detention facility and the greatest interest was the areas where the
detainees spent most of their time, such as their cells. In our discussion of the access
doors (referred as personnel doors by the Chief), we state that the defective locks were
removed from the access doors by personnel responsible for maintaining the DFIP.
However, we also discuss in the report that when the building was accepted, USACE


                                             16
TAN officials considered the building integration system a deficiency. The integration
system requires the magnetic sensors and electronic locks on the doors to function
properly. The DFIP contract required the contractor to build the electrical system to U.S.
National Electric Code or equivalent standards, if approved by the contracting officer.
However, the contractor did not build the electrical system to U.S. National Electric Code
as required by the DFIP contract. Additionally, the contractor did not request a waiver
from the contracting officer to build the electrical system to the British standards or a
hybrid of the two systems as required by the DFIP contract. As discussed in the report,
DoD OIG engineers concluded, based on their observations and conversations during
their site visit, that personnel who work with or around the electrical equipment at the
DFIP were not safeguarded from electrical safety hazards because of the mixed system.

We appreciate USACE TAN officials updating the status of the fire suppression system
and request the Commander, USACE TAN provide a copy of the Fire Marshal’s approval
of the system. In response to the discussion draft, USACE TAN officials provided
testing documents for the expansion of the DFIP signed by the contractor and USACE
personnel, but did not provide the certificate from the fire marshal indicating approval of
the fire suppression system. As discussed in the report, the warranty period for the DFIP
expired on September 25, 2010. However, the administrative contracting officer did not
provide the contractor with a memorandum listing the warranty items needing repair until
October 18, 2010. In a letter to the contractor on May 3, 2011, the administrative
contracting officer acknowledged that the warranty period expired on September 26,
2010, and that the Government made official notice of the warranty work required on
October 18, 2010.

Recommendations, Management Comments and Our
Response
We recommend the Commander, U.S. Army Corps of Engineers Afghanistan
Engineer District-North:

     1. Direct officials to provide continuous oversight and perform acceptance
testing until the satisfactory completion of the sewage system, electrical panels, the
fire alarm/fire sprinkler system, and the building integration system at the
Detention Facility in Parwan.

U.S. Army Corps of Engineers Afghanistan Engineer
District-North Comments
The Chief, Transatlantic Division Regional Integration Team, Directorate of Military
Programs, responding for the Commander, U.S. Army Corps of Engineers Afghanistan
Engineer District-North, agreed stating that testing was completed successfully and the
facility was accepted. Specifically, the contractor corrected the electrical grounding and
bonding issues and the fire suppression piping under warranty. In addition, the sewage
system and the fire suppression system were repaired before April 2011. The magnetic
sensors and electronic locks installed by the contractor are working as designed.


                                            17
Additionally, the Chief stated the Operation and Maintenance contractor will upgrade the
electrical system.

Our Response
Comments from the Chief, Transatlantic Division Regional Integration Team, Directorate
of Military Programs, were partially responsive. As discussed in the report, USACE
TAN accepted the DFIP although major deficiencies existed resulting in potential health
and safety issues. We appreciate that USACE TAN ensured the deficiencies were
corrected. We request the Commander, USACE TAN, provide comments to the final
report by June 22, 2012, and provide copies of the final acceptance testing reports
indicating the satisfactory completion of the fire suppressions system, the sewage system,
and the door repairs. Additionally, we request the Commander, USACE TAN, provide
the acceptance testing plan for the upgrade of the electrical system and the final
acceptance testing report when completed.

    2. Identify the personnel responsible for inadequate oversight over the
construction of the cell doors, sewage system, electrical system, and the fire
suppression system under contract W912ER-08-C-0040, perform a review of their
actions and if appropriate initiate administrative action.

U.S. Army Corps of Engineers Afghanistan Engineer District-
North Comments
The Chief, Transatlantic Division Regional Integration Team, Directorate of Military
Programs, responding for the Commander, USACE TAN, did not agree stating that clear
evidence of inadequate oversight was not provided in the report and because of the
amount of time that has passed, personnel involved are no longer assigned to the
organization.

Our Response
Comments from the Chief, Transatlantic Division Regional Integration Team, Directorate
of Military Programs, were nonresponsive. The report discusses several construction
deficiencies that would not have existed had there been proper oversight. For example,
the contractor did not build the electrical system according to the contract requirements.
Had there been proper oversight, the contractor would have been required to either follow
U.S. Electric Code or request a wavier as indicated in contract W912ER-08-C-0040. The
amount of time that passed should not preclude a review of the contract files since the
contract should still be active. We request that the Commander, USACE TAN,
reconsider his position on the recommendation and provide comments in response to the
final report by June 22, 2012.

    3. Direct the contracting officer to maintain copies of all acceptance-testing
results in the official contract file.




                                           18
U.S. Army Corps of Engineers Afghanistan Engineer District-
North Comments
The Chief, Transatlantic Division Regional Integration Team, Directorate of Military
Programs, responding for the Commander, USACE TAN, agreed with the
recommendation stating that it is standard USACE TAN practice to treat acceptance-
testing results as contract submittals. The Chief stated that the construction office
maintains contract submittals in the contract files until project completion when the
contracting officer provides direction for archiving the files.

Our Response
Comments from the Chief, Transatlantic Division Regional Integration Team, Directorate
of Military Programs, were partially responsive. USACE TAN officials could not
provide documentation of a final acceptance inspection, evidence of a final functional test
on the building integration system, a waiver for the contractor not building the electrical
system to U.S. Electrical Code, or evidence of a 4-month warranty inspection. Therefore,
we request the Commander, USACE TAN, provide additional comments in response to
the final report by June 22, 2012.

    4. Provide training to U.S. Army Corps of Engineers Afghanistan Engineer
District-North personnel on the need to:
       a. Adhere to Engineer Regulation 415-345-38, “Transfer and Warranty’s,”
       June 30, 2002 which will ensure contractors comply with FAR 52.246-21,
       “Warranty of Construction (Mar 1994) - Alternate I (APR 1984).”
       b. Review American National Standard Institute standards for detention
       facility specific infrastructures during the request for proposal process.
       c. Verify all statement of work requirements are compliant with applicable
       American National Standard Institute standards and the needs of the
       ultimate user.
       d. Verify contractors comply with all technical specifications in the contract
       so that all infrastructure systems are operable prior to the acceptance of the
       facility.

U.S. Army Corps of Engineers Afghanistan Engineer District-
North Comments
The Chief, Transatlantic Division Regional Integration Team, Directorate of Military
Programs, responding for the Commander, USACE TAN, agreed and stated that Transfer
and Warranty are covered as part of USACE’s Area Office University training provided
by the USACE Deployment Center in Winchester, Virginia for personnel, before their
deployment to Afghanistan.

Our Response
Comments from the Chief, Transatlantic Division Regional Integration Team, Directorate
of Military Programs, were responsive, and no further comments are required.



                                            19
Appendix A. Scope and Methodology
We conducted this performance audit from June 2010 through March 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit scope encompassed acquisition of construction services for the DFIP contract
W912ER-08-C-0040 and ANDF contract W5J9E-10-C-0047 construction projects. For
the DFIP project, we only reviewed data available and conducted inspections during the
warranty period. The ANDF project was in the early contract award phase during our
review. We reviewed contract files obtained from USACE Transatlantic Program Center
located in Winchester, Virginia, for information related to pre-solicitation, solicitation,
and award planning and execution. We reviewed contract files obtained from USACE
TAN for information related to post-award execution, quality oversight, and contract
administration. We coordinated visual inspections of the DFIP with DoD OIG engineers,
USACE engineers, and military personnel. We reviewed the FAR, relevant USACE
guidance, including ER 415-345-38, “Construction Transfer and Warranties,”
June 30, 2000, as well as other published guidance from DoD. We interviewed
appropriate military, civil service, and contractor personnel, including USACE engineers,
contracting personnel and quality assurance personnel, as well as, personnel who
occupied or operated the DFIP from Task Force Rocky Mountain, Task Force Protector,
Task Force Peacekeeper, and Combined Joint Interagency Task Force 435. We followed
up with the Commander, Combined Joint Interagency Task Force 435 to obtain the
current status of the DFIP.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
Engineers from the DoD OIG, Technical Assistance Division, provided expert judgment
concerning facility construction and deficient systems. The engineers assisted with visual
inspections of construction deficiencies related to DFIP systems from July 19, 2010
through July 21, 2010.

Prior Coverage
During the last 5 years, the Department of Defense Office of Inspector General
(DoD OIG), and the Special Inspector General for Afghanistan Reconstruction (SIGAR)
have issued seven reports discussing USACE contracting oversight of construction
projects in Afghanistan or Iraq.




                                            20
DoD IG

DoD IG Report No. D-2010-083 “Construction of the New Kabul Compound Lacked
Planning and Coordination,” September 30, 2010

DoD IG Report No. D-2010-049, “U.S. Army Corps of Engineers’ Use of Award Fees on
Contracts in Iraq and Afghanistan,” April 1, 2010

DoD IG Report No. D-2009-076, “Afghanistan Security Forces Fund Phase III-U.S.
Army Corps of Engineers Real Property Accountability,” April 14, 2009

DoD IG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005

SIGAR
SIGAR Audit-10-14, “ANA Garrison at Farah Appeared Well Built Overall but Some
Construction Issues Should Be Addressed,” July 30, 2010

SIGAR Audit-10-12, “ANP Compound at Kandahar Generally Met Contract Terms but
Has Project Planning, Oversight, and Sustainability Issues,” July 22, 2010

SIGAR Audit-10-09, “ANA Garrison at Kunduz Does Not Meet All Quality and
Oversight Requirements; Serious Soil Issues Need to Be Addressed,” April 30, 2010




                                         21
Appendix B. DFIP Warranty Punch List
On October 18, 2010, USACE TAN officials provided the contractor this punch list of
119 items where the contractor was responsible for providing both labor and an
additional 41 items where the contractor was to provide materials only.




                                          22
23
24
25
26
27
Appendix C. Health and Safety Risks
Memorandum Issued to USACE TAN and
Management Response




                   28
29
30
31
32
33
34
35
Department of the Army Comments




                        36
37
38
39
40
